No.

2t> - <\CS
In the

Supreme Court of the United States
ROSA SNYDER
Petitioner,
v.
THE ALABAMA MADISON COUNTY
DEPARTMENT OF HUMAN RESOURCES
Respondent.
ON PETITION FOR A WRIT OF
CERTIORARI TO
THE SUPREME COURT OF ALABAMA

PETITION FOR A WRIT OF CERTIORARI
ROSA SNYDER
86 WEST BROADWAY
DERRY, NH 03038
603-421-6045

FILED
DEC 0 7 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
First Question Presented: When a State
initiates child custody proceedings, does 28
U.S.C. §1738A(e), the national standard for
custody determinations between states, give
a grandparent a federal statutory right of
notice to the custody proceedings?
Second Question Presented: Does a State’s
federally-funded social service agency violate
42 U.S.C. §671(a)(19), 42 U.S.C. §671(a)(29),
by purposely excluding a grandparent from
its custody proceedings, placing the
grandchild with legal strangers, never
considering the grandparent for placement
before strangers, and never considering if the
grandparent is a viable alternative to
dependency or termination of parent rights?
Third Question Presented: If a State violates
federal laws and regulations during its
bifurcated child custody proceedings, the
State violates a parent’s rights of due
process, equal protection, and to be secure in
effects and papers, and the State purposely
excludes a grandparent from its custody
proceedings, if the State then terminates the
parent’s rights, which also terminates the
grandparent’s rights, on appeal, must the
State provide all of the records from its
bifurcated custody proceedings, which were
initiated, and bifurcated, without notice to
the parent and grandparent?

LIST OF PARTIES
All parties appear in the caption of the case
on the cover page.
RELATED CASES
Christopher u. Harburv. 536 U.S. 403 (2002)
M.L.B. v. S.L.J. 519 U.S. 102, 104 (1996)
Smith v. Orsanization of Foster Families.
431 U.S. 816, 824-47 (1977)
Troxel v. Granville. 530 U.S. 57 (2000)
V.L. v. E.L.. 136 S. Ct. 1017, 1020 (2016)
TABLE OF CONTENTS
QUESTIONS PRESENTED................

i

LIST OF PARTIES..............................

n

RELATED CASES...............................

n

INDEX TO APPENDICES..................

in

TABLE OF AUTHORITIES................

IV

OPINIONS BELOW............................

1

JURISDICTION..................................

1

CONSTITUTIONAL & STATUTORY
PROVISIONS.......................................

1

STATEMENT OF THE CASE...........

2

REASONS FOR GRANTING PETITION .. 31
CONCLUSION

32

n

PROOF OF SERVICE
APPENDIX.............

33
34

INDEX TO APPENDICES
APPENDIX A Decision of the Alabama Court
of Civil Appeals
34
APPENDIX B Decision of the Alabama Trial
Court
35
APPENDIX C Decision of the Alabama
Supreme Court Denying Review......36
APPENDIX D U.S. Constitutional Provisions
37
APPENDIX E Federal Statutory Provisions
37
APPENDIX F Federal Regulatory Provisions
42
APPENDIX G Alabama Statutory Provisions
54
APPENDIX H Case Law

m

55

TABLE OF AUTHORITIES
CASES
Christopher v. Harbury. 536 U.S. 403 (2002)
............................................................. ii, 30, 56
M.L.B. v. S.L.J. 519 U.S. 102, 104 (1996) ...ii,
30, 57
Smith v. Orsanization of Foster Families.
431 U.S. 816, 824-47 (1977)
ii, 26, 58
Troxel v. Granville. 530 U.S. 57 (2000) ii, 30,
59
V.L. v. E.L.. 136 S. Ct. 1017, 1020 (2016)....ii,
12, 59
FEDERAL STATUTES
28 U.S.C. §1738A(b)

10, 24, 41

28 U.S.C. §1738A(e) i, 9, 10, 12, 20, 23, 24, 42
42 U.S.C. §290dd-2....

20

42 U.S.C. §290dd-2(a)

....16, 38

42 U.S.C. §290dd-2(c)

15, 16, 38

42 U.S.C. §671..........

24

42 U.S.C. §671(a)(19)..i, 14, 20, 23, 24, 39, 42
42 U.S.C. §671(a)(29).....

i, 14, 20, 24, 39

42 U.S.C. §671(a)(29)(D)

............. 24, 40

42 U.S.C. §672..............

24

42 U.S.C. §672(a).........

40

IV

Part E §471(a)(19)(29) of the United States
Social Security Act
24, 42
FEDERAL REGULATIONS
42 C.F.R. §2.11....................

...... 8, 14, 42

42 C.F.R. §2.12(b)................

....... . 14, 42

42 C.F.R. §2.13(a)................

.... 16, 17, 44

42 C.F.R. §2.13(b)................

.... 16, 17, 44

42 C.F.R. §2.13(c).................

..........16, 45

42 C.F.R. §2.3......................

..... 19, 32, 45

42 C.F.R. §2.32(a)(1)............

......... 17, 45

42 C.F.R. §2.63....................

15

42 C.F.R. §2.63(a)................

.......... 16, 47

42 C.F.R. §2.64(a)................

.......... 16, 47

42 C.F.R. §2.64(b)................

.... 16, 20, 48

42 C.F.R. §2.64(c).................

....... . 16, 48

42 C.F.R. §2.64(d)................

.......... 16, 49

42 C.F.R. Part 2..................

.... 14, 18, 20

45 C.F.R. §1356.21(a)..........

.... 24, 25, 50

45 C.F.R. §1356.21(b)..........

22, 23, 25, 51

45 C.F.R. §1356.21(b)(l)(i)(ii)

.......... 25, 51

45 C.F.R. §1356.21(c)...........

...... 22, 25, 52

45 C.F.R. §1356.21(d)..........

25

45 C.F.R. §1356.50...............

27, 54

v

45 C.F.R. §1356.86................

27

ALABAMA STATUTES
Alabama Code §12-15-305(b)

22, 54 x

Alabama Code §38-12-2(b)...

25, 55

vi

IN THE
SUPREME COURT OF THE UNITED
STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of
certiorari is issued to review the judgment
below.
OPINIONS BELOW
The opinion of the Alabama Supreme Court
denying a review of the merits appears at
Appendix C and is unpublished. The opinion
of the Alabama Court of Civil Appeals
appears at Appendix B and is unpublished.
JURISDICTION
The date on which the highest state court
decided my case was July 10, 2020. A copy of
that decision appears at Appendix C. The
jurisdiction of this Court is invoked under 28
U.S.C. §1257(a).
CONSTITUTIONAL & STATUTORY
PROVISIONS
U.S. Constitution
FIRST AMENDMENT

APPENDIX D

FOURTEENTH AMEND. APPENDIX D
Federal Statutes
18 U.S.C. §241

APPENDIX E

1

28 U.S.C.
42 U.S.C.
42 U.S.C.
42 U.S.C.

§1738A
§290dd-2
§671
§672

APPENDIX E
APPENDIX E
APPENDIX E
APPENDIX E

Federal Regulations
42 C.F.R. §2.11

APPENDIX F

42 C.F.R. §2.12

APPENDIX F

42 C.F.R. §2.13

APPENDIX F

42 C.F.R. §2.63

APPENDIX F

42 C.F.R. §2.64

APPENDIX F

45 C.F.R. §1356

APPENDIX F
Other

Alabama Code §12-15-305(b) APPENDIX G
Alabama Code §38-12-2(b)

APPENDIX G

STATEMENT OF THE CASE
General Background
I’m a retired engineer with no legal
background, so I’ll just tell my story in plain
language, as I understand it. Alabama
removed my grandchild without notice to my
son (the child’s legal father), without notice
to me, and without notice to any paternal
relative, as required by federal law. After
Alabama removed my grandchild, she was

2

declared “dependent,” and then Alabama
petitioned to terminate my son’s parental
rights, which terminates my grandparental
rights, again without notifying him, paternal
relatives or myself.
After Alabama initiated child custody
proceedings without notice, it unilaterally
bifurcated proceedings: (1) child dependency
and permanency and (2) parental fitness.
After obtaining a dependency determination,
Alabama petitioned to terminate my son’s
parental rights, which also terminates my
srandvarental rights, again without notice.
When Alabama terminated my son’s
parental rights, and denied my petitions for
custody and visitation, I appealed. During
my appeal, I discovered Alabama violated my
son’s and my due process, and federal laws &
regulations during its custody proceedings.
Alabama refused to hear my grievances
about the violations that occurred during the
dependency and permanency part of the
bifurcated custody proceedings, from which
my son and I were entirely, and purposely,
excluded. Alabama denied my request to
consolidate the records from the bifurcated
proceedings for my appeal. So then I
separately appealed the dependency and
permanency
determination,
and
the
appellate court stated there was “no final
order to appeal,” and dismissed it.

3

Without consolidating the records of the
bifurcated custody proceedings, or without
the ability to directly appeal the dependency
and permanency proceedings, there was no
way to show a cumulative effect of the
violations during the custody proceedings.
My son was married December 26, 2016, and
nine months to the day, September 26, 2017,
my grandchild was born. Regrettably, my son
and daughter-in-law were addicted to
opiates; however, to their credit, their child
was born healthy, full-term, and with no
drugs in her system. Alabama became
involved with them because my daughter-inlaw had three small children (my stepgrandchildren), and she and my son were
arrested earlier that year for possession of
drug paraphernalia. This misdemeanor was
my son’s first arrest. The Madison County
Department of Human Services (“DHR”) took
custody of my daughter-in-law’s three older
children (my step-grandchildren), and my
son and daughter-in-law were evicted from
their home due to the incident.
This was a tumultuous time. I did not
approve of their lifestyle, but they lost their
home after the arrest, my son’s wife was
pregnant, so I allowed them to stay, rent
free, in an apartment building I owned.
About 60 days after moved in the apartment,
I discovered they were stealing from me and

4

made them move out. This caused a riff
between my daughter-in-law and myself, but
my son and I remained cordial.
During this time, I contacted DHR about the
pending birth of my grandchild. I called,
emailed, and personally went to their office. I
also contacted the DHR headquarters in
Montgomery, Alabama. DHR HQ responded
that because my grandchild was yet not
born, and they could not help.
When the baby was born on September 26,
2017, my daughter-in-law did not want me at
the hospital, because she was still upset that
I had evicted them. At the hospital was the
Alabama DHR caseworkers, my daughter-inlaw’s cousins and my son. DHR, my son, and
daughter-in-law devised and agreed to a
written “safety plan” for maternal cousins to
take the child while DHR rehabilitated the
parents for safe family reunification.
After my grandchild’s birth, I again
contacted Madison County DHR, with no
response. However, my son, who visited his
child at DHR and attended DHR ISP
meetings there, told me the DHR caseworker
asked him to relay a message to me, which
was, “Stop bugging us!” Shocked and
confused, I decided to back off for a couple of
weeks, and maybe DHR would be more
receptive. Unfortunately, several weeks
later, I was diagnosed with breast cancer. In

5

November 2017, I relocated to Derry NH,
where I owned residential property, to begin
cancer treatment at the Dana Farber Cancer
Institute in Boston, Massachusetts.
It was a difficult decision to leave Alabama
at that particular time. However, my
thoughts were, “The baby is in a safety plan
devised by DHR with the child’s maternal
cousins. My son says the cousins are good
people and the baby is safe with them.” So,
considering all these facts, I left Alabama for
New Hampshire to focus on fighting cancer.
Between September 2017 and August 2018,
DHR was supposed to rehabilitate my son
and his wife for a “safe family reunification.”
That didn’t happen. My son called me in
August 2018 and said he wanted to leave
Alabama. He wanted to come to NH to get
medical treatment for his addiction. He felt
he could help me through chemo, which was
about to start soon. He said he received
minimal outpatient treatment at the free
clinic in Madison County, i.e., Wellstone, Inc.
(“Wellstone”). At the time, Wellstone was
qualified to treat addiction, but not opiate
addicts. It had no detoxification program,
and no inpatient treatment program. He said
he was still homeless and unemployed, and
DHR offered no housing support or any
training or resources for his chronic
unemployment. He said he needed to be

6

medically detoxed and then admitted to an
inpatient substance use disorder (“SUD”)
treatment program. I agreed. I helped him
relocate by buying him a one-way bus ticket
from Alabama to Manchester NH and giving
him a place to sleep once he arrived.
My son came to New Hampshire in the
beginning September 2018. It was evident he
was still in the grips of addiction. He acted
exactly like an untreated addict would act:
he was paranoid and drank alcohol furtively,
hiding empty bottles around my house. Even
though he broke my “no drugs or alcohol”
rule, I was actually relieved it was not heroin
he was on. I knew from watching the news
that Mexican heroin was laced with fentanyl,
which could (and did) kill people in an
instant. Alcohol usually takes years to kill
someone. My son did get it together enough
to accompany me to my chemo treatments in
Boston, while he struggled with his
addiction. I did not know how to help him.
The first course of my dose dense chemo
ended December 2018. The second course
was to start in January 2019. I decided to
return to Alabama for the second course
because my properties there needed my
attention. My son checked into the
Hampstead Psychiatric Hospital on January
5, 2019 (his sober day) for three weeks of
medically supervised detox. After being

7

released from the Hampstead Hospital, he
checked into “Turning Point,” a 90-day
residential treatment program, at the
Southeastern New Hampshire Services,
which is a substance use disorder treatment
program, as defined by 42 C.F.R. §2.11 and
§2.12(b). After completing the 90-day
program at Turning Point, my son went to
live at Bonfire’s Recovery Services, sober
living program, where they regularly
conducted random urinalysis tests, and he
passed every test. These New Hampshire
agencies treated my son physical addiction;
moreover, they spent a considerable amount
of time educating him about his condition,
provided a strong networked support group,
and provided support and resources to help
him get a job. My son sincerely wanted to
kick his addiction so he could reunite with
his daughter. His actions in New Hampshire
proved that to me.
Today, two years after getting proper
treatment, my son is clean, sober and
gainfully employed. I am very thankful for
his recovery. After completing my second
chemo in Alabama in March 2019, from June
to August 2019 I received 35 radiation
treatments there. Today, I’m in remission
and cancer free.
Events Leading to First Question

8

V

However, while all this was happening, and
unbeknownst to my son and myself, thirtytwo (32) days after he signed the “safety
plan,” DHR filed a petition to declare my
grandchild “dependent,” which means the
state wanted custody. DHR claimed my
granddaughter was “in physical danger”
although she was still with the “maternal
cousins” who also signed the “safety plan.”
Although DHR had my name, address, phone
number and email address in their case files,
they never contacted me, as required by 28
U.S.C. §1738A(e), which is the national
standard for custody determinations between
the states.
I ask this court to determine whether I had a
right of notice to the dependency and
permanency proceedings of my grandchild,
which DHR initiated November 2, 2017. In
addition to my not receiving notice of the
dependency and permanency proceedings, in
October 2018 when DHR filed a petition to
terminate my son’s parental rights, paving
the way for legal strangers to adopt my
grandchild, my son and I again were not
notified. Alabama DHR initiated two child
custody proceedings without giving my son
or myself notice. I ask this court to
determine if I had a right of notice the
custody proceedings. This leads to my first
question, which is, perhaps, a question of

9

first impression, pursuant to U.S. Supreme
Court Rule 10(c).
First Question Presented: When a State
initiates child custody proceedings, does 28
U.S.C. §1738A(e), the national standard for
custody determinations between states, give
a grandparent a federal statutory right of
notice to the custody proceedings?
DHR knew I existed. DHR knew my contact
information. DHR knew I wanted to be
involved. Although I had relocated to New
Hampshire in November 2017, my email
address and phone number were the same.
My U.S.P.S. mail was forwarded to New
Hampshire. Furthermore, DHR admitted, on
record, it purposely excluded me. DHR could
have notified me, if it had wanted to d o so.
I claim 28 U.S.C. §1738A(e) entitles me with
a right of notice to my grandchild’s custody
proceedings because I am a “contestant,” as
defined by 28 U.S.C. §1738A(b). [See
APPENDIX E] I claim Alabama’s custody
determinations are not valid in New
Hampshire because Alabama purposely
failed to give me notice. Theoretically
speaking, if my granddaughter was in New
Hampshire, and I went to the NH courts and
showed I was never notified of Alabama’s
custody proceedings, the NH courts could
declare the Alabama custody determinations
invalid and not honor them. The fact that

10

Alabama purposely failed to notify me
creates the very scenario that 28 U.S.C.
§1738A was designed to prevent: parental
kidnapping. I ask this court to make a
determination whether 28 U.S.C. §1738A(e)
bestows me with a right of notice of my
grandchild’s custody proceedings, and if so, I
ask the court for a declaration that Alabama
violated my right of notice.
While not exactly like my case, I found a case
where this court reversed a decision
regarding 28 U.S.C. §1738A, aka as a “full
faith and credit act.”
“The Constitution provides that "Full
Faith and Credit shall be given in
each State to the public Acts, Records,
and judicial Proceedings of every other
State." U.S. Const., Art. IV, § 1. That
Clause requires each State to
recognize and give effect to valid
judgments rendered by the courts of
its sister States. It serves "to alter the
status of the several states as
independent foreign sovereignties,
each free to ignore obligations created
under the laws or by the judicial
proceedings of the others, and to make
them integral parts of a single nation."
Milwaukee County v. M.E. White Co..
296 U.S. 268, 277, 56 S.Ct. 229, 80
L.Ed. 220 (1935).”

11

V.L. v. E.L.. 136 S. Ct. 1017, 1020
(2016)
Alabama admits it purposely excluding me
from its custody proceedings. I contend its
custody determination violated 28 U.S.C.
§1738A(e) and is not enforceable in New
Hampshire, or any other state for that
matter, except maybe in Alabama. Please
decide this issue. I ask for a declaratory
statement from this court.
Events Leading to Second Question
Moving forward to June 5, 2019, when I was
in Alabama finishing chemo, and planning to
return to NH for radiation, my son informed
me of a hearing in two weeks, June 19, 2019.
That was the first time I’d heard an inkling
of any child custody proceedings. The
hearing was to decide whether to terminate
my son’s parental rights forever. I reeled
from the flood of all this new information. I
learned the “maternal cousins” named in
DHR’s “safety plan” were not cousins at all;
they were distantly related to the maternal
family, and legal strangers to my grandchild.
I learned DHR petitioned for a dependency
determination thirty-two (32) days after my
son signed their “safety plan,” claiming my
grandchild was in physical danger. I learned
DHR petitioned to terminate my son’s
parental rights nine (9) months earlier, in
October 2018. My son discovered all of this

12

after he had 90-days of sobriety and started
thinking clearly with the drugs and alcohol
purged from his system. Records show he
contacted DHR the end of March 2019. DHR
took his contact information and sent a
certified letter April 2019, which is first
notice he received of custody proceedings.
That letter was the first notice anyone in our
family received about custody proceedings
that had been going on for 17 months.

1

I hired a lawyer and my motion to intervene
was granted. I petitioned for custody but the
trial court ignored the petition. My lawyer
asked for continuance since I’d known of the
case for one (1) week, but the trial court
ignored that motion too. I attended the trial
wearing a scarf because I was bald from
chemo. I testified DHR had rebuffed me
when I repeatedly tried to be involved with
my grandchild before my cancer diagnosis.
As evidence, I submitted the emails I sent
DHR between August and October 2017.
DHR testified they knew of my existence, but
their new DHR caseworker1 said her records
showed my son and daughter-in-law did not
want me involved. However, the dependency
and permanency proceedings record does not

1 Record shows the caseworker took over the case
in 2018, midway in the custody proceedings.

13

corroborate her statement, and my son
denies saying that. The record shows that
my son had provided DHR contact
information of his brother and myself as his
“family resources.” The record also shows
DHR never searched for a viable alternative
during the dependency and permanency
proceedings, and never searched for a viable
alternative during termination proceedings,
as required by 42 U.S.C. §671(a)(19) and 42
U.S.C. §671(a)(29). [See APPENDIX E]
I attended the trial to adjudicate my son’s
parental rights, but he could not attend
because he was in a 42 C.F.R. Part 2
substance use disorder treatment program in
NH. So I witnessed the trial firsthand. At the
time, I did not realize I was witnessing three
(3) lawyers, DHR, and the trial court violate
federal laws and regulations while they were
adjudicating my son’s parental rights forever.
At trial, before any other testimony, the
judge allowed a lawyer from Wellstone to
approach the bench. That lawyer brought the
originals of all of my son’s substance use
disorder treatment records in the custody
Wellstone, which is a Part 2 federally-funded
substance use disorder treatment program,
pursuant to 42 C.F.R. §2.11 and 42 C.F.R.
§2.12(b), because it accepts federal money for
its services (i.e., Medicare and Medicaid).
[See APPENDIX F] The Wellstone lawyer

14

brought all of my son’s federally-protected
treatment records in response to a subpoena
duces tecum that was issued to DHR by the
court only three (3) business days before the
trial. DHR’s lawyer had served the subpoena
on Wellstone the same day it was issued to
him. The subpoena was directed to Dr. Tim
Cheplen, who no longer worked there. My
son and I, the other parties received no
notice that DHR intended to subpoena the
production of my son’s treatment records,
violating our rights to notice and be heard.
The day after receiving the subpoena (two (2)
days before trial) the record shows another
Wellstone lawyer submitted a motion to
quash, correctly arguing the subpoena was
invalid: (a) it was directed to an ex-employee,
(b) three days notice was an undue burden,
and (c) 42 U.S.C. §290dd-2(c) strictly
prohibited Wellstone from acknowledging
whether they had my son’s records or not.
[See APPENDIX E] These were sound legal
arguments for not disclosing my son’s
federally-protected records; however, for
some reason on the day of trial, Wellstone
sent in this young, fresh-out-of-law-school
lawyer who carried the originals of all my
son’s federally-protected substance use
disorder treatment records, including extra­
sensitive, extra-protected psychotherapy
notes, pursuant to 42 C.F.R. §2.63. [See
APPENDIX F] That lawyer asked for an

15

order to disclose the records, and the judge
issued a hasty, verbal, bench order.
Weeks before trial, my son requested to
attend remotely since he in treatment in NH
and had no travel money, but the court
denied his request, although the court
stated, on record, that it had the technical
capability to grant his request. So my son
was not there to object or assert his
privilege, and his court-appointed lawyer did
not object or try to assert his privilege for
him. At the time, I did not understand I was
witnessing violations of the following federal
laws and regulations: 42 U.S.C. §290dd-2(a),
42 U.S.C. §290dd-2(c), 42 C.F.R. §2.13(a), 42
C.F.R. §2.13(b), 42 C.F.R. §2.13(c), 42 C.F.R.
§2.63(a),
42 C.F.R. §2.64(a), 42 C.F.R.
§2.64(b),
42 C.F.R. §2.64(c), 42 C.F.R.
§2.64(d) and 42 C.F.R. §2.64(e) [See
APPENDICES E and F]2
Later on in the trial, the guardian ad litem,
who is an attorney licensed in Alabama,
(“AGAL”)
was questioning the DHR
caseworker on the witness stand. The AGAL
produced a document and asked if the DHR

2

We also complained to the Alabama Bar
Association (“ABA”) about the three (3)
attorneys’ violations. The ABA responded that
they would take no action.

16

caseworker recognized it. The caseworker
recognized the document as my son’s
discharge report she received from “Turning
Point,” the substance use disorder treatment
facility in New Hampshire. The discharge
report had been emailed to the caseworker a
couple of weeks earlier. My son had given
consent for the New Hampshire counselor to
email his discharge report to the caseworker
because, in good faith, he was trying to show
DHR that he was making progress in his
addiction treatment program. However, DHR
used his report as evidence against him at
trial. After learning DHR used the report
against him, my son immediately rescinded
his consent for any other of his treatment
records to be disclosed to DHR.
Federal laws and regulations state that a
person who receives federally-protected
records shall not redisclose them to anyone
for any purpose, period. At the end my son’s
discharge report there is a federal warning,
42 C.F.R. §2.32(a)(1), stating the record is
federally protected and redisclosure is
strictly prohibited. The DHR caseworker
ignored the federal warning and shared my
son’s federally-protected report with the
AGAL, who used it as evidence against him
at his trial. Federal regulations 42 C.F.R.
§2.13(a) and 42 C.F.R. §2.13(b) state that its
federally-protected records may not be used
as evidence against a patient, period. The

17

AGAL chose to ignore federal regulations
and introduced my son’s protected report as
evidence against him. [See APPENDIX F]
While all of this was occurring, my daughterin-law’s lawyer (not my son’s) objected to the
introduction of the NH discharge report as
hearsay and “hearsay within hearsay.”
Apparently, this was so blatant this lawyer
couldn’t stand by and do nothing. However,
under further questioning by the AGAL, the
caseworker testified the report was one she
regularly maintained in her files at DHR
business. So the court overruled the other
lawyer’s
objections
and
allowed the
admission of yet another unlawfully obtained
and disclosed, federally-protected record to
be used for an unlawful purpose, i.e. as
evidence against my son. I repeat: the trial
court allowed a federally-protected substance
use
treatment
report,
created
and
maintained by a 42 C.F.R. Part 2 addiction
treatment facility in New Hampshire, to be
admitted as evidence as a DHR business
record and an exception to hearsay.
Next, at the request of the AGAL, the DHR
caseworker read portions of the discharge
report that were unfavorable to my son, out
loud. The DHR caseworker read specific
sentences that the AGAL had underlined
beforehand. The sentences discussed my
son’s diagnosis, treatment and referral. Any

18

favorable sentences were omitted when it
was read. It was clear the DHR caseworker
and AGAL conspired to violate federal laws
and regulations to unlawfully disclose my
son’s federally-protected report.
There is a criminal penalty for violating Part
2 regulations. 42 C.F.R. §2.3 “Criminal
penalty for violation. Under 42 U.S.C. 290dd2(f), any person who violates any provision of
this section or any regulation issued
pursuant to this section shall be fined in
accordance with Title 18 of the U.S. Code.”3
[See APPENDIX E]
There is a criminal penalty for conspiring to
violate my son’s constitutional rights. 18
U.S.C. §241, “If two or more persons conspire
to injure, oppress, threaten, or intimidate
any person in any State, Territory,
Commonwealth, Possession, or District in
the free exercise or enjoyment of any right or
privilege secured to him by the Constitution
or laws of the United States, or because of
his having so exercised the same.” [See
APPENDIX E]

3

We submitted written complaints about these
violations to the U.S. Attorney for Northern
Alabama, (who was then) Jay Town, but did hear
back from them.

19

Three weeks later, the judge terminated my
son’s parental rights, which terminated my
grandparental rights. The judge denied my
motion for grandparent visitation, and just
as he ignored my motion for continuance, he
never ruled on my petition for custody. My
son and I appealed and the Alabama Court of
Civil Appeals consolidated our cases. We
were now “co-appellants.”
During our appeal, we learned that in
addition to 28 U.S.C. §1738A(e), 42 U.S.C.
§671(a)(29) also required DHR to notify me.
We learned 42 U.S.C. §671(a)(19) required
DHR to give me preference when placing my
grandchild. We learned 42 U.S.C. §290dd-2
and 42 C.F.R. Part 2, protected my son’s
treatment records. We also learned the
subpoena used to disclose my son’s federallyprotected records, without notice, violated 42
C.F.R. §2.64(b). [See APPENDICES E & F]
During appeal, I asked for access to the
records of the dependency and permanency
proceedings. I was certain if DHR, three
lawyers, and the court violated federal laws
and regulations during the adjudication of
my son’s parental rights while I was present
and watching them, the records from the
dependency and permanency proceedings,
from which my son and I were entirely and
purposely excluded, would be rife with legal
errors and violations. The trial court denied

20

my request for the records, stating the
proceedings were a separate case to which I
was not a party.
Next, my son and I directly appealed the
dependency and permanency determination,
but the Alabama Court of Civil Appeals
dismissed them, stating there was no final
judgment to appeal. However, before the
appellate court had the chance to dismiss our
appeals, we received the dependency and
permanency case records and closely
scrutinized them. Just as we thought, the
dependency and permanency proceedings
were rife with legal errors and federal
violations. To wit:
(1) DHR attempted service of the dependency
and permanency proceedings on my son one
time, which failed due to his transient and
homeless lifestyle. Under oath, DHR stated
they used “due diligence” to locate him for
service of process, but were unable to
ascertain his whereabouts. However, the
record shows DHR did not use due diligence
to locate him, because it shows that my son
was at DHR’s facility to visit his child, and/or
attend DHR Individual Service Plan (“ISP”)
meetings, eleven (11) times during the eight
(8) months after signing their “safety plan,”
waiting for DHR to provide the promised
“reunification services” to him, which DHR
spectacularly failed to do. DHR could have,

21

and should have, notified my son during any
of the eleven times he was at their facility,
but they chose not to, and proceeded
regardless, violating my son’s right to notice,
and equal protection.
(2) The judge did not make the required,
timely, federal judicial determinations,
pursuant to 45 C.F.R. §1356.21(b)(l)(i)(ii)
and 45 C.F.R. §1356.21(c).
(3) Seventy-five percent (75%) of DHR
reports the court used to make its
dependency and permanency determinations
are completely missing from the record.
(4) Fifty-three percent (53%) of AGAL
reports the court used to make its
dependency and permanency determinations
are completely missing from the record.
(5) The trial court did not assign my son’s
court appointed attorney to the dependency
and permanency proceedings, but only to the
termination proceedings, violating Alabama
Code §12-15-305(b) and my son’s right to
equal protection.
[See APPENDICES E, F & G for the above
authorities cited.]
The violations listed, supra, affected my
son’s rights and the integrity of the
dependency and permanency proceedings;

22

however, the record shows more legal errors
and violations that specifically affected me:
(1) On November 2, 2017 DHR submitted a
UCCJEA affidavit with knowingly false
information. DHR stated, under oath, they
knew of no other person who could claim
custody or visitation, but the record also
shows that DHR knew about me.
(2) DHR never notified me of the dependency
and permanency proceedings, in violation of
28 U.S.C. §1738A(e) & 42 U.S.C. §671(a)(29).
(3) DHR never searched for a viable
alternative to the dependency determination;
it never searched for a viable alternative to
the termination of my son’s parental rights.
DHR never searched for viable alternatives.
DHR is required by 45 C.F.R. §1356.21(b) to
try to prevent removal. One way to do that is
to search for viable alternatives. DHR
admits, on record, they purposely excluded
me from its custody proceedings. DHR also
violated 42 U.S.C. §671(a)(19) by never
considering me, an adult relative, for
placement of the child before strangers. This
leads to my second question, which is,
perhaps, a question of first impression,
pursuant to U.S. Supreme Court Rule 10(c):
Second Question Presented: Does a State’s
federally-funded social service agency violate
42 U.S.C. §671(a)(19), 42 U.S.C. §671(a)(29),

23

by purposely excluding a grandparent from
its custody proceedings,
placing the
grandchild with legal strangers, never
considering the grandparent for placement
before strangers, and never considering if the
grandparent is a viable alternative to
dependency or termination of parent rights?
I claim DHR violated 42 U.S.C. §671(a)(19)
and 42 U.S.C. §671(a)(29) (aka as Part E
§471(a)(19)(29) of the United States Social
Security Act). Those laws are mandates by
the federal government, which funds every
State’s equivalent to Alabama DHR. Federal
law stipulates for a State to receive federal
funds for adoption and foster care, it must
implement certain minimum standards and
requirements, as requisites for the funds.
Pursuant to 45 C.F.R. § 1356.21(a), every
State’s social service agency must comply
with 42 U.S.C. §671 and 42 U.S.C. §672.
Although 42 U.S.C. §671(a)(29) does not
bestow me the right of notice (as 28 U.S.C.
§1738A(e) does), it mandates DHR to provide
me notice of custody proceedings because 28
U.S.C. §1738A(b) defines me as a “contestant”
in the custody proceedings and DHR accepts
federal foster care and adoption funds.
42 U.S.C. §671(a)(29) mandates for DHR to
provide notice to me, and 42 U.S.C.
§671(a)(29)(D) requires DHR to include
information of the Alabama kinship

24

guardianship program. Alabama elected the
option to receive kinship guardianship
assistance federal payments, codified by
Alabama Code §38-12-2(b). [See APPENDIX
H] I contend federal law mandates DHR to
search for alternatives to removal, search for
relatives when placing a child, and search for
viable alternatives to the termination of a
parent’s rights, which DHR did not do, even
though the State accepts federal adoption
and foster care funds.
45 C.F.R. §1356.21(a) stipulates DHR must
comply with these standards in order to
received federal foster care and adoption
money. [See APPENDIX G]
45 C.F.R. §1356.21(b) stipulates DHR must
make “reasonable efforts” to prevent the
removal of a child. [See APPENDIX G]
45 C.F.R. §1356.21(b)(l)(i)(ii) and 45 C.F.R.
§ 1356.21(c)
requires
specific
judicial
determinations to be made at specific times
during custody proceedings in order for the
state to receive federal adoption/foster care
funds, but the trial court did not comply with
those regulations. [See APPENDIX F]
45 C.F.R. § 1356.21(d) stipulates the required
federal judicial determinations, supra, must
be properly documented. [See APPENDIX F]
There should be some adverse consequence
to Alabama for violating federal laws and

25

regulations during its custody proceedings. I
contend that Alabama should not get away
with blatantly violating federal laws and
regulations during custody proceedings,
especially when the violations also violate a
citizen’s rights. Alabama, at the very least, is
supposed to consider and investisate my
fitness, as a willing grandparent, for the
child’s placement. They are supposed to
consider whether I was a viable alternative
to dependency and termination. DHR
ignored their legal duties. In court, they
almost boastfully admit they purposely
excluded me from the custody proceedings,
with impunity. DHR goes on as if nothing
happened. I am left in their disastrous wake.
I claim Smith v. Orsanization of Foster
Families. 431 U.S. 816, 824-47 (1977)
determines that my rights, as the legal,
natural grandparent of the child, outweighs
the rights of the foster parents and
outweighs DHR’s “wishes.” [See Smith v.
Orsanization of Foster Families. 431 U.S.
816, 824-47 (1977) APPENDIX H]
I ask for a declaratory judgment whether
Alabama’s custody determinations are valid
since the State violated federal laws and
regulations during its custody proceedings.
Events Leading to Third Question

26

When I realized DHR purposely excluded me
from its custody proceedings, I had three
recourses: (1) consolidate the records from
the two proceedings for my appeal (denied),
(2) directly appeal the dependency and
permanency determination (dismissed), and
(3) report the violations to the Department of
Health and Human Services (“HHS”), the
federal agency that funds DHR. So I sent a
letter to HHS detailing DHR’s federal
violations during my grandchild’s removal
and custody proceedings. I received a letter
in reply from a Mr. Joe Bock. He said HHS
could not help me and would not be taking
any action concerning my allegations.
The penalty for DHR violating federal laws
and regulations is defined at 45 C.F.R.
§1356.50 and 45 C.F.R. §1356.86. It is paltry.
Alabama simply has to return the federal
funds it received for my grandchild’s foster
care, but Mr. Bock confirmed even that
would not happen. I am left with no recourse
than this appeal. [See APPENDIX F]
When the Alabama Court of Civil Appeals
affirmed the trial court’s decision to
terminate my son’s parental rights (affirmed,
no
opinion),
which
terminated
my
grandparental rights, that court provided
comparable cases. After examining the cases,
I gather the appellate court believes no legal
errors
occurred
during
the
custody

27

proceedings. When the Alabama Supreme
Court denied my petition for a writ of
certiorari, it confirmed that court’s opinion. I
believe these decisions are WRONG.
In my brief to the Alabama Court of Civil
Appeals, and my petition for writ of
certiorari, I asked the Alabama courts to
consider the “cumulative adverse effect” of all
of the legal errors and violations by the State
during its dependency and permanency and
termination proceedings. However, the
courts chose not to do that. Moreover, and
more egregiously, Alabama courts actively
prevented me from filing my grievances
about the legal errors discovered during the
dependency and permanency proceedings.
So after all the denials and dismissals, I
launched a collateral attack on the
dependency and permanency determination,
reasoning the courts said it was a separate
case. However, the trial court refused to
release the record on appeal, now stating the
dependency and permanency case was
“already decided” by the appellate court. The
message in Alabama is loud and clear: the
two custody proceedings are separate when
trying to consolidate the bifurcated records
on appeal; however, they are one case that
has “already been decided,” when launching
a collateral attack on the dependency and
permanency portion of the proceedings. I’m

28

in a no-win position in Alabama and ask this
court intervene to decide what is right.
I claim the unilateral bifurcation of my
grandchild’s custody case, without notice to
the father, myself, or anyone in the paternal
family, thwarts my ability to file a grievance
about the legal errors and federal violations
impacting me during the entire custody
proceedings. I claim that the federal
violations that occurred in the courtroom, in
my plain view, during the trial to adjudicate
my son’s parental rights forever, should have
been more than enough to invalidate the
order that terminated my son’s parental
rights. However, in Alabama, in 2019 and
2020, it was not enough. This leads to the
third question presented, which is perhaps a
question of first impression, pursuant to U.S.
Supreme Court Rule 10(c):
Third Question Presented: If a State violates
federal laws and regulations during its
bifurcated child custody proceedings, and the
State violates a parent’s rights of due
process, equal protection, and to be secure in
effects and papers, and the State purposely
excludes a grandparent from its custody
proceedings, if the State then terminates the
parent’s rights, which also terminates the
grandparent’s rights, on appeal, must the
State provide all of the records from its
bifurcated custody proceedings, which were

29

initiated, and bifurcated, without notice to
the parent and grandparent?
I claim Alabama’s trial and appellate courts
denied my right to access their courts to file
my grievances of the violations that occurred
during the dependency and permanency
proceedings, from which my son, the child’s
legal parent, myself the child’s legal
grandparent, and the entire paternal family
were purposely excluded. I claim Alabama
violated my first amendment right to access
the courts and file a grievance. [See
APPENDIX E, Christopher v. Harburv. 536
U.S. 403 (2002) and M.L.B. v. S.L.J. 519 U.S.
102, 104 (1996)] I also claim Alabama
violated my right to equal protection under
the law by purposely excluding me from my
grandchild’s custody proceedings.
I looked up cases on grandparent rights.
There’s not a lot out there. However, I found
Troxel v. Granville. 530 U.S. 57 (2000) [See
APPENDIX E], which is sort of similar, but
different from my situation. In Troxel. that
grandparent wanted more visitation than the
mother, Granville, was willing to provide.
This court ruled that a state is prohibited
from awarding a grandparent
more
visitations and going against a parent's
wishes, because in this country parents have
a fundamental risht to decide how to raise
their own children. I agree with the Troxel

30

decision. However, because I am going
against the wishes of a State that purposely
excluded me from my grandchild’s custody
proceedings. I claim Alabama violated my
fundamental rights as a grandparent when it
violated federal law and purposely excluded
me from its custody proceedings. I ask this
court for help.
Thank you for considering my case.
REASONS FOR GRANTING PETITION
Because no Alabama court would, or could,
explain why the questions presented here
are irrelevant, and in the interest of justice
for all grandparents, in Alabama and
nationwide, who are similarly situated, I
respectfully request for the U.S. Supreme
Court to grant a Writ of Certiorari.
If Alabama can do this so easily to me, an
educated woman, there must be other
grandparents out there suffering the same
fate, especially in wake of the nationwide
Perdue Pharma opiate crisis.
There is no recourse for justice other than
being heard by the U.S. Supreme Court. I
submitted complaints to the Alabama Bar
about the three attorneys’ federal violations
during the adjudication—they responded
that they would take no action, no

31

reprimand,
no
warning,
nothing.
I
complained to the U.S. Attorney for
Northern Alabama—as directed by 42 C.F.R.
§2.3—about federal violations by the three
attorneys, DHR, and Wellstone; however,
their office never responded. I notified HHS
of the violations but they took no action
either. If this court grants a writ to hear my
case, it means the law still matters when a
State takes legal action against a vulnerable
parent and blatantly breaks federal laws and
regulations to accomplish an agenda.
This issue is of nationwide importance to all
grandparents who are similarly situated. I
respectfully request the U.S. Supreme Court
to issue a writ to hear and decide this case.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

Rosa Snyder
December 7, 2020

32

No.
IN THE
SUPREME COURT OF THE UNITED STATES
ROSA SNYDER
Petitioner,
v.
THE ALABAMA MADISON COUNTY
DEPARTMENT OF HUMAN RESOURCES
Respondent.
PROOF OF SERVICE
I, Rosa Snyder, do swear that on this date,
December 4, 2020, as required by Supreme Court
Rule 29, I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on the
responding party’s counsel, who is the only
person required to be served, by depositing an
envelope containing the above documents in the
United States mail properly addressed to her
with first-class postage prepaid. The name and
address of the person served is Elizabeth
Hendrix, P.O. Box 304000, Montgomery, AL
36130. I declare under penalty of perjury that
this is true and correct. Executed December 7,
2020.

Rosa Snyder

33

APPENDIX
APPENDIX A Decision of the Alabama Court
of Civil Appeals

/

34

APPENDIX C Decision of the Alabama
Supreme Court Denying Review

36

APPENDIX D U.S. Constitutional Provisions
First Amendment
“Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the
freedom of speech, or of the press; or the
right of the people peaceably to assemble,
and to petition the Government for a redress
of grievances.”
Fourteenth Amendment
“All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and
of the State wherein they reside. No State
shall make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws.”
APPENDIX E Federal Statutory Provisions
18 U.S.C. §241. Conspiracy against rights. “If
two or more persons conspire to injure,
oppress, threaten, or intimidate any person
in any State, Territory, Commonwealth,
Possession, or District in the free exercise or
enjoyment of any right or privilege secured
to him by the Constitution or laws of the

37

United States, or because of his having so
exercised the same.”
42
U.S.C.
§290dd-2(a)
“Requirement.
Records of the identity, diagnosis, prognosis,
or treatment of any patient which are
maintained
in
connection
with
the
performance of any program or activity
relating to substance use disorder education,
prevention,
training,
treatment,
rehabilitation
or research
which is
conducted, regulated, or directly or indirectly
assisted by any department or agency of the
United States shall, except as provided in
subsection (e), be confidential and be
disclosed only for the purposes and under the
circumstances expressly authorized under
subsection (b).”
42 U.S.C. §290dd-2(c) “Use of records in
criminal, civil, or administrative contexts.
Except as otherwise authorized by a court
order under subsection (b)(2)(C) or by the
consent of the patient, a record referred to in
subsection (a), or testimony relaying the
information contained therein, may not be
disclosed or used in any civil, criminal,
administrative, or legislative proceedings
conducted by any Federal, State, or local
authority, against a patient, including with
respect to the following activities:
“(1) Such record or testimony shall not be
entered into evidence in any criminal

38

prosecution or civil action before a Federal or
State court.
“(2) Such record or testimony shall not form
part of the record for decision or otherwise be
taken into account in any proceeding before a
Federal, State, or local agency.
“(3) Such record or testimony shall not be
used by any Federal, State, or local agency
for a law enforcement purpose or to conduct
any law enforcement investigation.
“(4) Such record or testimony shall not be
used in any application for a warrant.”
42 U.S.C. §671(a)(19) “provides that the
State shall consider giving preference to an
adult relative over a non-related caregiver
when determining a placement for a child,
provided that the relative caregiver meets all
relevant State child protection standards.”
42 U.S.C. §671(a)(29) “provides that, within
30 days after the removal of a child from the
custody of the parent or parents of the child,
the State shall exercise due diligence to
identify and provide notice to the following
relatives: all adult grandparents, all parents
of a sibling of the child, where such parent
has legal custody of such sibling, and other
adult relatives of the child (including any
other adult relatives suggested by the
parents), subject to exceptions due to family
or domestic violence...”

39

(A) specifies that the child has been or
is being removed from the custody of
the parent or parents of the child;
(B) explains the options the relative
has under Federal, State, and local
law to participate in the care and
placement of the child, including any
options that may be lost by failing to
respond to the notice;
(C) describes the requirements under
paragraph (10) of this subsection to
become a foster family home and the
additional services and supports that
are available for children placed in
such a home; and
(D) if the State has elected the option
to
make
kinship
guardianship
assistance payments under paragraph
(28) of this subsection, describes how
the relative guardian of the child may
subsequently enter into an agreement
with the State under section 673(d) of
this title to receive the payments;
42 U.S.C. §672(a) “In general
“(1) Eligibility. Each State with a plan
approved under this part shall make foster
care maintenance payments on behalf of
each child who has been removed from the

40

home of a relative specified in section 606(a)
of this title (as in effect on July 16, 1996) into
foster care if—
“(A) the removal and foster care placement
met, and the placement continues to meet,
the requirements of paragraph (2); and
“(B) the child, while in the home, would have
met the AFDC eligibility requirement of
paragraph (3).
“(2) Removal and foster care placement
requirements
“The removal and foster care placement of a
child meet the requirements of this
paragraph if—
“(A) the removal and foster care placement
are in accordance with—
“(i) a voluntary placement agreement
entered into by a parent or legal guardian of
the child who is the relative referred to in
paragraph (1); or
“(ii) a judicial determination to the effect
that continuation in the home from which
removed would be contrary to the welfare of
the child and that reasonable efforts of the
type described in section 671(a)(15) of this
title for a child have been made.”
28 U.S.C. §1738A(b) “contestant” means a
person, including a parent or grandparent,

41

who claims a right to custody or visitation of
a child;”
28 U.S.C. §1738A(e) “Before a child custody
or visitation determination is made,
reasonable notice and opportunity to be
heard shall be given to the contestants, any
parent whose parental rights have not been
previously terminated and any person who
has physical custody of a child.”
Part E §471(a)(19)(29) of the United States
Social Security Act [See 42 U.S.C.
§671(a)(19)&(29)]
APPENDIX F Federal Regulatory Provisions
42 C.F.R. §2.11 “Part 2 program means a
federally assisted program (federally assisted
as defined in §2.12(b) and program as
defined in this section).”
42 C.F.R. §2.12(b) “Federal assistance. A
program is considered to be federally
assisted if:
“(1) It is conducted in whole or in part,
whether directly or by contract or otherwise
by any department or agency of the United
States (but see paragraphs (c)(1) and (2) of
this section relating to the Department of
Veterans Affairs and the Armed Forces);
“(2) It is being carried out under a license,
certification
registration,
or
other
authorization granted by any department or

42

agency of the United States including but not
limited to:
“(i) Participating provider in the Medicare
program;
“(ii) Authorization to conduct maintenance
treatment or withdrawal management; or
“(iii) Registration to dispense a substance
under the Controlled Substances Act to the
extent the controlled substance is used in the
treatment of substance use disorders;
“(3) It is supported by funds provided by any
department or agency of the United States
by being:
“(i) A recipient of federal financial assistance
in any form, including financial assistance
which does not directly pay for the substance
use disorder diagnosis, treatment, or referral
for treatment; or
“(ii) Conducted by a state or local
government unit which, through general or
special revenue sharing or other forms of
assistance, receives federal funds which
could be (but are not necessarily) spent for
the substance use disorder program; or
“(4) It is assisted by the Internal Revenue
Service of the Department of the Treasury
through the allowance of income tax
deductions for contributions to the program

43

or through the granting of tax exempt status
to the program.”
42
C.F.R.
§2.13(a)
“Confidentiality
restrictions and safeguards.
“(a) General. The patient records subject to
the regulations in this part may be disclosed
or used only as permitted by the regulations
in this part and may not otherwise be
disclosed or used in any civil, criminal,
administrative, or legislative proceedings
conducted by any federal, state, or local
authority. Any disclosure made under the
regulations in this part must be limited to
that information which is necessary to carry
out the purpose of the disclosure.”
42 C.F.R. §2.13(b) “Unconditional compliance
required.

/

“The restrictions on disclosure and use in the
regulations in this part apply whether or not
the part 2 program or other lawful holder of
the patient identifying information believes
that the person seeking the information
already has it, has other means of obtaining
it, is a law enforcement agency or official or
other government official, has obtained a
subpoena, or asserts any other justification
for a disclosure or use which is not permitted
by the regulations in this part.”
42 C.F.R. §2.13(c) “Acknowledging the
presence of patients: Responding to requests.

44

“(1) The presence of an identified patient in a
health care facility or component of a health
care facility which is publicly identified as a
place where only substance use disorder
diagnosis, treatment, or referral for
treatment is provided may be acknowledged
only if the patient's written consent is
obtained in accordance with subpart C of this
part or if an authorizing court order is
entered in accordance with subpart E of this
part.
The
regulations
permit
acknowledgement of the presence of an
identified patient in a health care facility or
part of a health care facility if the health
care facility is not publicly identified as only
a
substance use
disorder diagnosis,
treatment, or referral for treatment facility,
and if the acknowledgement does not reveal
that the patient has a substance use
disorder.”
42 C.F.R. §2.3 “Criminal penalty for
violation. Under 42 U.S.C. 290dd-2(f), any
person who violates any provision of this
section or any regulation issued pursuant to
this section shall be fined in accordance with
Title 18 of the U.S. Code.”
42 C.F.R. §2.32(a)(1) “This record which has
been disclosed to you is protected by federal
confidentiality rules (42 CFR part 2). The
federal rules prohibit you from making any
further disclosure of this record unless

45

further disclosure is expressly permitted by
the written consent of the individual whose
information is being disclosed in this record
or, is otherwise permitted by 42 CFR part 2.
A general authorization for the release of
medical or other information is NOT
sufficient for this purpose (see §2.31). The
federal rules restrict any use of the
information to investigate or prosecute with
regard to a crime any patient with a
substance use disorder, except as provided at
§§2.12(c)(5) and 2.65.”
42
C.F.R.
§2.63
“Confidential
communications. (a) A court order under the
regulations in this part may authorize
disclosure of confidential communications
made by a patient to a part 2 program in the
course of diagnosis, treatment, or referral for
treatment only if:
“(1) The disclosure is necessary to protect
against an existing threat to life or of serious
bodily injury, including circumstances which
constitute suspected child abuse and neglect
and verbal threats against third parties;
“(2) The disclosure is necessary in connection
with investigation or prosecution of an
extremely serious crime allegedly committed
by the patient, such as one which directly
threatens loss of life or serious bodily injury,
including homicide, rape, kidnapping, armed

46

robbery, assault with a deadly weapon, or
child abuse and neglect; or
“(3) The disclosure is in connection with
litigation or an administrative proceeding in
which the patient offers testimony or other
evidence pertaining to the content of the
confidential communications.”
42 C.F.R. §2.64 “Procedures and criteria for
authorizing
orders
disclosures
for
noncriminal purposes, (a) Application. An
order authorizing the disclosure of patient
records for purposes other than criminal
investigation or prosecution may be applied
for by any person having a legally recognized
interest in the disclosure which is sought.
The application may be filed separately or as
part of a pending civil action in which the
applicant asserts that the patient records are
needed to provide evidence. An application
must use a fictitious name, such as John
Doe, to refer to any patient and may not
contain or otherwise disclose any patient
identifying information unless the patient is
the applicant or has given written consent
(meeting the requirements of the regulations
in this part) to disclosure or the court has
ordered the record of the proceeding sealed
from public scrutiny.”
42 C.F.R. §2.64(b) “Notice. The patient and
the person holding the records from whom
disclosure is sought must be provided:

47

“(1) Adequate notice in a manner which does
not disclose patient identifying information
to other persons; and
“(2) An opportunity to file a written response
to the application, or to appear in person, for
the limited purpose of providing evidence on
the statutory and regulatory criteria for the
issuance of the court order as described in
§2.64(d).”
42 C.F.R. §2.64(c) “Review of evidence:
Conduct of hearing. Any oral argument,
review of evidence, or hearing on the
application must be held in the judge's
chambers or in some manner which ensures
that patient identifying information is not
disclosed to anyone other than a party to the
proceeding, the patient, or the person
holding the record, unless the patient
requests an open hearing in a manner which
meets the written consent requirements of
the regulations in this part. The proceeding
may include an examination by the judge of
the patient records referred to in the
application.”
42 C.F.R. §2.64(d) “Criteria for entry of
order. An order under this section may be
entered only if the court determines that
good
cause
exists.
To
make
this
determination the court must find that:

48

>5

“(1) Other ways of obtaining the information
are not available or would not be effective;
and
“(2) The public interest and need for the
disclosure outweigh the potential injury to
the
patient,
the
physician-patient
relationship and the treatment services.”
42 C.F.R. §2.64(e) “Content of order. An
order authorizing a disclosure must:
“(1) Limit disclosure to those parts of the
patient's record which are essential to fulfill
the objective of the order;
“(2) Limit disclosure to those persons whose
need for information is the basis for the
order; and
“(3) Include such other measures as are
necessary to limit disclosure for the
protection of the patient, the physicianpatient relationship and the treatment
services; for example, sealing from public
scrutiny the record of any proceeding for
which disclosure of a patient's record has
been ordered.”
45 C.F.R. §1356.10 “Scope. This part applies
to title IV-E agency programs for foster care
maintenance payments, adoption assistance
payments, related foster care and adoption
administrative and training expenditures,

49

and the independent living services program
under title IV-E of the Act.”
45 C.F.R. §1356.21(a) “Statutory and
regulatory requirements of the Federal foster
care program. To implement the foster care
maintenance payments program provisions
of the title IV-E plan and to be eligible to
receive Federal financial participation (FFP)
for foster care maintenance payments under
this part, a title IV-E agency must meet the
requirements of this section, 45 CFR
1356.22, 45 CFR 1356.30, and sections 472,
475(1), 475(4), 475(5), 475(6), and for a
Tribal
title
IV-E
agency
section
479(B) (c)(1)(C) (ii) (II) of the Act.”
45 C.F.R. §1356.21(b) “Reasonable efforts.
The title IV-E agency must make reasonable
efforts to maintain the family unit and
prevent the unnecessary removal of a child
from his/her home, as long as the child's
safety is assured; to effect the safe
reunification of the child and family (if
temporary
out-of-home
placement
is
necessary to ensure the immediate safety of
the child); and to make and finalize alternate
permanency plans in a timely manner when
reunification is not appropriate or possible.
In order to satisfy the “reasonable efforts”
requirements of section 471(a)(15) (as
implemented through section 472(a)(2) of the
Act), the title IV-E agency must meet the

50

requirements of paragraphs (b) and (d) of
this section. In determining reasonable
efforts to be made with respect to a child and
in making such reasonable efforts, the child's
health and safety must be the paramount
concern.”
45 C.F.R. §1356.21(b)(l)(i)(ii) “(1) Judicial
determination of reasonable efforts to
prevent a child's removal from the home.
“(i) When a child is removed from his/her
home, the judicial determination as to
whether reasonable efforts were made, or
were not required to prevent the removal, in
accordance with paragraph (b)(3) of this
section, must be made no later than 60 days
from the date the child is removed from the
home pursuant to paragraph (k)(l)(ii) of this
section.
“(ii) If the determination concerning
reasonable efforts to prevent the removal is
not made as specified in paragraph (b)(l)(i)
of this section, the child is not eligible under
the title IV-E foster care maintenance
payments program for the duration of that
stay in foster care.”
45 C.F.R. §1356.21(c) “Contrary to the
welfare
determination.
Under
section
472(a)(2) of the Act, a child's removal from
the home must have been the result of a
judicial determination (unless the child was

51

removed pursuant to a voluntary placement
agreement) to the effect that continuation of
residence in the home would be contrary to
the welfare, or that placement would be in
the best interest, of the child. The contrary to
the welfare determination must be made in
the first court ruling that sanctions (even
temporarily) the removal of a child from
home. If the determination regarding
contrary to the welfare is not made in the
first court ruling pertaining to removal from
the home, the child is not eligible for title IVE foster care maintenance payments for the
duration of that stay in foster care.”
45
C.F.R.
§1356.21(d)(l)(2)(3)
“Documentation of judicial determinations.
The judicial determinations regarding
contrary to the welfare, reasonable efforts to
prevent removal, and reasonable efforts to
finalize the permanency plan in effect,
including judicial determinations that
reasonable efforts are not required, must be
explicitly documented and must be made on
a case-by-case basis and so stated in the
court order.
“(1) If the reasonable efforts and contrary to
the welfare judicial determinations are not
included as required in the court orders
identified in paragraphs (b) and (c) of this
section, a transcript of the court proceedings
is the only other documentation that will be

52

accepted to verify that these
determinations have been made.

required

“(2) Neither affidavits nor nunc pro tunc
orders will be accepted as verification
documentation in support of reasonable
efforts and contrary to the welfare judicial
determinations except for a Tribal title IV-E
agency for the first 12 months that agency's
title IV-E plan is in effect as provided for in
section 479B(c)(l)(C)(ii)(I) of the Act.
“(3) Court orders that reference State or
Tribal
law
to
substantiate
judicial
determinations are not acceptable, even if
such law provides that a removal must be
based on a judicial determination that
remaining in the home would be contrary to
the child's welfare or that removal can only
be ordered after reasonable efforts have been
made.”
45 C.F.R. §1356.50 “Withholding of funds for
non-compliance with the approved title IV-E
plan.
“(a) To be in compliance with the title IV-E
plan requirements, a title IV-E agency must
meet the requirements of the Act and 45
CFR 1356.20, 1356.21, 1356.30, and 1356.40
of this part.
“(b) To be in compliance with the title IV-E
plan requirements, a title IV-E agency that
chooses to claim FFP for voluntary

53

placements must meet the requirements of
the Act, 45 CFR 1356.22 and paragraph (a)
of this section; and
“(c) For purposes of this section, the
procedures in § 1355.39 of this chapter
apply.”
45
C.F.R.
§1356.86
noncompliance.

“Penalties

for

“(a) Definition of Federal funds subject to a
penalty. The funds that are subject to a
penalty are the CFCIP funds allocated or
reallocated to the State agency under section
477(c)(1) of the Act for the Federal fiscal year
that corresponds with the reporting period
for which the State agency was required
originally to submit data according to section
1356.83(a) of this part.”
APPENDIX G Alabama Statutory Provisions
Alabama Code §12-15-305(b) “Right to
counsel for petitioners or respondent
parents, legal guardians, or legal custodians
in dependency proceedings. In dependency
and termination of parental rights cases, the
respondent parent, legal guardian, or legal
custodian shall be informed of his or her
right to be represented by counsel and, if the
juvenile court determines that he or she is
indigent, counsel shall be appointed where
the respondent parent, legal guardian, or

54

legal custodian is unable for financial
reasons to retain his or her own counsel.”
Alabama Code §38-12-2(b) “When a child has
been removed from his or her home and is in
the care, custody, or guardianship of the
department, the department shall attempt to
place the child with a relative for kinship
foster care. If the relative is approved by the
department to provide foster care services, in
accordance with rules and regulations
adopted by the department regarding foster
care services, and a placement with the
relative is made, the relative may receive
payment for the full foster care rate only as
provided by federal law for the care of the
child and any other benefits that might be
available to foster parents, whether in
money or in services. Foster care payments
shall cease upon the effective date of the
kinship subsidiary payments or as provided
by the department.
APPENDIX H Case Law

“(a) Access-to-courts claims fall into two
categories: claims that systemic official
action frustrates a plaintiff in preparing and
filing suits at the present time, where the
suits could be pursued once the frustrating
condition has been removed; and claims of
specific cases that cannot be tried, no matter

55

what official action may be in the future.
Regardless of whether the claim turns on a
litigating -opportunity yet to be gained or an
opportunity already lost, the point of
recognizing an access claim is to provide
some effective vindication for a separate and
distinct right to seek judicial relief for some
wrong. Thus, the access-to-courts right is
ancillary to the underlying claim, without
which a plaintiff cannot have suffered injury
by being shut out of court. It follows that the
underlying claim is an element that must be
described in the complaint as though it were
being independently pursued; and that,
when the access claim (like this one) looks
backward, the complaint must identify a
remedy that may be awarded as recompense
but not otherwise available in some suit that
may yet be brought. The underlying cause of
action and its lost remedy must be addressed
by allegations in the complaint sufficient to
give the defendant fair notice.”
Christopher v. Harburv. 536 U.S. 403 (2002).
“(d) Guided by Lassiter, Santosky, and other
decisions acknowledging the primacy of the
parent-child relationship, the Court agrees
with M.L.B. that Mayer points to the
disposition proper in this case: Her parental
termination appeal must be treated as the
Court has treated petty offense appeals, and

56

Mississippi may not withhold the transcript
she needs to gain review of the order ending
her parental status. The Court's decisions
concerning access to judicial processes,
commencing with Griffin and running
through Mayer, reflect both equal protection
and due process concerns. See Ross v.
Moffitt, 417 U.S. 600, 608-609. In these
cases, "[d]ue process and equal protection
principles converge." Bearden v. Georgia, 461
U.S. 660, 665.”
M.L.B. v. S.L.J. 519 U.S. 102, 104 (1996)

“Under the New York scheme children may
be placed in foster care either by voluntary
placement or by court order. Most foster-care
placements are voluntary. They occur when
physical or mental illness, economic
problems, or other family crises make it
impossible for natural parents, particularly
single parents, to provide a stable home life
for their children for some limited period.
Resort to such placements is almost
compelled when it is not possible in such
circumstance to place the child with a
relative or friend, or to pay for the services of
a homemaker or boarding school.
“It is one thing to say that individuals may
acquire a liberty interest against arbitrary
governmental interference in the family-like

57

\

associations into which they have freely
entered, even in the absence of biological
connection or state-law recognition of the
relationship. It is quite another to say that
one may acquire such an interest in the face
of another's constitutionally recognized
liberty interest that derives from blood
relationship, state-law sanction, and basic
human right — an interest the foster parent
has recognized by contract from the outset.
Whatever liberty interest might otherwise
exist in the foster family as an institution,
that interest
must be
substantially
attenuated where the proposed removal from
the foster family is to return the child to his
natural parents.”
Smith v. Organization of Foster Families.
431 U.S. 816, 824-47 (1977)

“In affirming, the State Supreme Court held,
inter
alia,
that
§26.10.160(3)
unconstitutionally infringes on parents'
fundamental right to rear their children.
Reasoning that the Federal Constitution
permits a State to interfere with this right
only to prevent harm or potential harm to
the child, it found that § 26.10.160(3) does
not require a threshold showing of harm and
sweeps too broadly by permitting any person
to petition at any time with the .only

58

requirement being that the visitation serve
the best interest of the child.”
Troxel v. Granville, 530 U.S. 57 (2000)
“With respect to judgments, "the full faith
and credit obligation is exacting." Baker v.
General Motors Corp., 522 U.S. 222, 233, 118
S.Ct. 657, 139 L.Ed.2d 580 (1998). "A final
judgment in one State, if rendered by a court
with adjudicatory authority over the subject
matter and persons governed by the
judgment,
qualifies
for
recognition
throughout the land." Ibid. A State may not
disregard the judgment of a sister State
because it disagrees with the reasoning
underlying the judgment or deems it to be
wrong on the merits. On the contrary, "the
full faith and credit clause of the
Constitution precludes any inquiry into the
merits of the cause of action, the logic or
consistency of the decision, or the validity of
the legal principles on which the judgment is
based." Milliken v. Meyer, 311 U.S. 457, 462,
61 S.Ct. 339, 85 L.Ed. 278 (1940).”
V.L. v. E.L.. 136 S. Ct. 1017, 1020 (2016)

59

<?

